HHS/OIG, Audit -"Review of TrailBlazer Health Enterprises Outlier Payments to Clinic Resources
Management, Inc., for Partial Hospitalization Services for the Period August 1, 2000, Through December
31, 2003,"(A-07-04-04045)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of TrailBlazer Health Enterprises Outlier Payments
to Clinic Resources Management, Inc., for Partial Hospitalization Services for the Period August 1,
2000, Through December 31, 2003," (A-07-04-04045)
September 14, 2005
Complete
Text of Report is available in PDF format (638 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the fiscal intermediary, TrailBlazer Health Enterprises (TrailBlazer),
calculated Medicare outlier payments to Clinic Resources Management, Inc. (Quitman Clinic) in accordance
with Medicare reimbursement requirements.  TrailBlazer correctly calculated Medicare outlier payments
to Quitman Clinic during the period May 1 through December 31, 2003; however, for the period August
1, 2000, to May 1, 2003, TrailBlazer did not calculate outlier payments in accordance with Medicare
reimbursement requirements.  As a result, TrailBlazer overpaid Quitman Clinic $8,802,649.